No. 19-1045

 

 

IN THE

Supreme Court of the United States

RAMINDER KAUR, PETITIONER
v.

STATE OF MARYLAND, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF MARYLAND

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,710 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 1, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
